<html>
<title> - THE IRREGULAR WARFARE ROADMAP</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-85]
 
                     THE IRREGULAR WARFARE ROADMAP

                               __________

                                HEARING

                               BEFORE THE

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 27, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
33-585 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    JIM SAXTON, New Jersey, Chairman
ROBIN HAYES, North Carolina          MARTY MEEHAN, Massachusetts
W. TODD AKIN, Missouri               ADAM SMITH, Washington
JOE WILSON, South Carolina           MIKE McINTYRE, North Carolina
JOHN KLINE, Minnesota                ELLEN O. TAUSCHER, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
GEOFF DAVIS, Kentucky                JAMES R. LANGEVIN, Rhode Island
JOEL HEFLEY, Colorado                RICK LARSEN, Washington
MAC THORNBERRY, Texas                JIM COOPER, Tennessee
JIM GIBBONS, Nevada                  JIM MARSHALL, Georgia
JEFF MILLER, Florida                 CYNTHIA McKINNEY, Georgia
FRANK A. LoBIONDO, New Jersey
               Alex Kugajevsky, Professional Staff Member
                 Bill Natter, Professional Staff Member
                    Brian Anderson, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Wednesday, September 27, 2006, The Irregular Warfare Roadmap.....     1

Appendix:

Wednesday, September 27, 2006....................................    23
                              ----------                              

                     WEDNESDAY, SEPTEMBER 27, 2006
                     THE IRREGULAR WARFARE ROADMAP
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Saxton, Hon. Jim, a Representative from New Jersey, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Smith, Hon. Adam a Representative from Washington, Terrorism, 
  Unconventional Threats and Capabilities Subcommittee...........     2

                               WITNESSES

Mancuso, Mario, Deputy Assistant Secretary of Defense for Special 
  Operations and Combating Terrorism, Office of the Assistant 
  Secretary of Defense for Special Operations and Low-Intensity 
  Conflict.......................................................     4
Mannon, Brig. Gen. Otis G., Deputy Director, Special Operations, 
  J-3, Joint Staff, U.S. Air Force...............................     7
Olson, Vice Adm. Eric T., Deputy Commander, U.S. Special 
  Operations Command, U.S. Navy..................................     3

                                APPENDIX

Prepared Statements:

    Mancuso, Mario...............................................    28
    Mannon, Brig. Gen. Otis G....................................    42
    Olson, Vice Adm. Eric T......................................    37
    Saxton, Hon. Jim.............................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Smith, Hon. Adam.............................................    53
                     THE IRREGULAR WARFARE ROADMAP

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                     Washington, DC, Wednesday, September 27, 2006.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jim Saxton 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW 
    JERSEY, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Saxton. The stenographer is ready, so if we could all 
take our seats. The Subcommittee on Terrorism, Unconventional 
Threats and Capabilities meets today to discuss the Department 
of Defense Irregular Warfare Roadmap. The terrorist attacks on 
September 11, 2001, marked the engagement of the United States 
in a very different form of warfare than has been the focus of 
strategic military planning during the Cold War. The global war 
on terror is defined by its long-term and irregular nature, and 
it requires an approach that does not solely focus on 
conventional capabilities or direct action missions to kill or 
capture terrorists and their supporters.
    Recognizing the irregular nature of the global war on 
terror, the Department of Defense is taking measures to adapt 
to this new threat environment and to focus on building and 
improving our military irregular warfare capability by 
expanding Special Operations Forces, shifting conventional 
forces toward irregular warfare and significantly developing an 
Irregular Warfare Roadmap.
    The roadmap will guide the implementation of the 2006 
Quadrennial Defense Review recommendations as well as provide 
an important tool for the department to continue refinement of 
its approach to the global war on terror.
    At the end of the hearing, we should walk away with a good 
understanding of where the Department of Defense is developing 
the Irregular Warfare Roadmap, what impacts the roadmap will 
have on policy, planning and research decisions and what 
operational activities and issues can be expected in the 
conduct of the irregular warfare campaign.
    As a committee, we must remain focused on the strategic 
objectives of this war, and irregular warfare will prove to be 
a deciding factor in the global war on terror.
    Today we have a great panel: Mr. Mancuso, Deputy Assistant 
Secretary of Defense for Special Operations in Combating 
Terrorism, Office of the Assistant Secretary For Defense of 
Special Operations and Low-Intensity Conflict; Vice Admiral 
Eric Olson, U.S. Navy, Deputy Commander, U.S. Special 
Operations Command; and Brigadier General O.G. Mannon, U.S. Air 
Force, Deputy Director, Special Operations, Joint Staff.
    We look forward to your testimony as we represent the key--
as you represent the key players in the development of the 
Irregular Warfare Roadmap as well as those who will be most 
closely involved in the roadmap's implementation.
    Before I proceed, let me yield to the ranking member for--
Mr. Smith is the ranking member today.
    [The prepared statement of Mr. Saxton can be found in the 
Appendix on page 27.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

    Mr. Smith. Sitting in for Mr. Meehan who had a family 
situation to deal with today, so I appreciate the opportunity, 
and I thank the Chairman and join him in welcoming our 
witnesses and look forward to their testimony.
    Particularly I want to thank the Chairman for having the 
hearing on this incredibly important subject. It is titled 
irregular warfare, but at this point, it is pretty much regular 
warfare for us. It is what we are doing now in Iraq and 
Afghanistan and elsewhere and learning how to deal with all 
that entails is critical to our victory in the war on terror. 
And as with all warfare, it is always different than the last 
one. It is just a matter of how it is different.
    So learning those differences I think is critically 
important, and it is worth saying that, at this point, we still 
have work to do, without question. We have not had the success 
we would even have liked in Iraq or even Afghanistan and 
elsewhere, so we need to continue to learn lessons and move 
forward and get better at it to understand the dynamics of the 
irregular warfare that we face.
    And with that said, I am very confident that we can figure 
it out as a Nation. We have met many new challenges, things we 
didn't expect. That is the normal way of life, unfortunately. 
Things come that you didn't expect. It is a matter of how 
quickly you change and adapt to them in order to deal with the 
new challenges, and that is what the military and our country 
faces right now in dealing with the brand of warfare that we 
face.
    It is going to be a very long war. We need to figure out 
the new dynamics, adapt and do our best to contend with them. I 
am confident that we will.
    I will look forward to hearing from our witnesses and 
asking questions as well to learn how we are doing and how we 
can do better. I have a longer statement for the record which I 
will submit, and I thank you, Mr. Chairman.
    Mr. Saxton. Without objection. Thank you very much, Mr. 
Smith.
    Admiral, the floor is yours sir.

 STATEMENT OF VICE ADM. ERIC T. OLSON, DEPUTY COMMANDER, U.S. 
             SPECIAL OPERATIONS COMMAND, U.S. NAVY

    Admiral Olson. Sir, I have submitted a statement for the 
record. With your permission, I will not read that but instead 
make a few separate comments regarding irregular warfare. I 
think it is important that we understand what irregular warfare 
is, in part at least, and what it is not.
    So I will focus my opening remarks on that.
    Chairman Saxton, Congressman Smith and distinguished 
members, I am pleased to be here before you today. I am pleased 
to join my colleagues, General Mannon and Mr. Mancuso, in doing 
so.
    Irregular warfare is a relatively new term. It is without 
doctrinal history in the Department of Defense lexicon. The 
working definition of irregular warfare, which we will discuss 
today, was approved by the Deputy Secretary of Defense during 
the development of the Irregular Warfare Roadmap, which is 
still a work in progress.
    The key words in the working definition of irregular 
warfare are that irregular warfare is a form of warfare. It is 
not a list of units that conduct irregular warfare. It is not a 
list of capabilities for irregular warfare. It is not a list of 
weapons systems for irregular warfare.
    Instead, it is more an approach. It is a set of activities. 
It is what we do with the capability and with the units and the 
systems, not those things themselves.
    Irregular warfare does include aspects of insurgency and 
counter insurgency, guerrilla warfare, unconventional warfare 
asymmetrical warfare and much more. There can be irregular 
warfare activities conducted in a regular or a major warfare 
campaign. Irregular warfare activities may include direct 
action and indirect action approaches.
    But irregular warfare is certainly not just about a range 
of military actions or military options. One tends to think 
about irregular warfare as something other than direct force-
on-force confrontation between uniformed armies extending to 
other less kinetic actions by the Department of Defense, and 
that is true.
    But it is also important to know that irregular warfare 
activities include many of those activities that are squarely 
in the domain of other agencies of our government and in the 
domain of coalition forces and coalition nations in a global 
campaign.
    Irregular warfare is clearly bigger than the Department of 
Defense, and although the Department of Defense (DOD) does have 
a key role in leading and conducting many irregular warfare 
activities, it is certainly not confined to DOD. And even 
within the Department of Defense, irregular warfare is much 
bigger than the United States Special Operations Command, 
although United States Special Operations Command has a history 
and a culture and a maturity of thought and actions that make 
Special Operations Command uniquely suited to leading Defense 
Department efforts in many of the areas of irregular warfare.
    The nine core activities of Special Operations Forces have 
significant overlap with the activities of an irregular warfare 
campaign, those being: counter proliferation of weapons of mass 
destruction; combating terrorism; direct-action special 
reconnaissance; unconventional warfare; foreign internal 
defense; civil affairs; psychological operations; and 
informational operations; and synchronizing Department of 
Defense activities for the global war on terror. But irregular 
warfare activities, of course, include activities beyond the 
range of Special Operations activities.
    And just to be clear, the Irregular Warfare Roadmap that we 
are addressing today is not a campaign plan or a guiding 
document for the global war on terror. It does not lay out the 
Department of Defense's total approach to irregular warfare. It 
is one of eight roadmaps under development, some of which have 
been approved and some not yet, that will serve as implementing 
documents to follow through on decisions made during the 
Quadrennial Defense Review. And the real purpose of the 
irregular warfare is to provide resourcing guidance to the 
services and the Special Operations Command within the 
Department of Defense as we go forward to implement the QDR 
decisions.
    It represents a sub set of the universe of irregular 
warfare activity and, again, remains a work in progress.
    Sir, that concludes my opening remarks.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 37.]
    Mr. Saxton. Thank you very much. Secretary Mancuso can we 
get your remarks next please? Thanks and thank you for being.

   STATEMENT OF MARIO MANCUSO, DEPUTY ASSISTANT SECRETARY OF 
DEFENSE FOR SPECIAL OPERATIONS AND COMBATING TERRORISM, OFFICE 
 OF THE ASSISTANT SECRETARY OF DEFENSE FOR SPECIAL OPERATIONS 
                   AND LOW-INTENSITY CONFLICT

    Secretary Mancuso. Thank you. It is my pleasure, sir.
    Chairman Saxton, Congressman Smith and distinguished 
members of the committee, thank you for inviting us here today 
to present you with an update on where the Department of 
Defense is regarding irregular warfare.
    As the 2005 Quadrennial Defense Review (QDR) stated, the 
United States is involved in a long war. This war is irregular 
in its nature, and our enemies are not traditional conventional 
military forces but rather dispersed global terrorist networks 
that exploit Islam to advance radical political ends.
    Three factors have intensified the danger of this irregular 
war challenge: the rise of virulent extremist ideologies; the 
absence of effective governance in many areas of the world; and 
the potential of these enemies to acquire weapons of mass 
destruction.
    Irregular warfare is a form of warfare and has a long 
history. Unlike traditional warfare, which focuses on defeating 
an adversary's military forces, the focus of irregular warfare 
is on the legitimacy of the relevant political authority.
    Irregular warfare favors indirect approaches, though it may 
employ the full range of military and other elements of 
national power to erode an adversary's power, influence and 
will.
    Irregular warfare will likely be the dominant force of 
conflict our Nation faces over the next two decades. The global 
war on terror and irregular war in the most fundamental sense 
will require the U.S. military to adopt nontraditional and 
indirect approaches.
    And while we must maintain our ability to deal with 
traditional threats, our Armed Forces must rebalance to adjust 
to this changing national security environment. Our experience 
thus far on the war on terrorism underscores the need to 
reorient our military forces to be able to project power 
through indirect approaches on a global scale and for an 
indefinite period.
    The future security environment will challenge traditional 
U.S. advantages. The U.S. and its partners are likely to face 
state and non-state adversaries that employ irregular warfare 
as their primary form of warfare. Strategic policy and 
operational and other factors may preclude and constrain our 
Armed Forces from conducting conventional military campaigns 
against them. This problem will be exacerbated by nuclear-armed 
hostile states with sophisticated anti-access capabilities that 
may preclude direct military options.
    These situations will require or favor an-all-of-government 
effort, including an irregular military approach using indirect 
and often nontraditional methods and means to achieve U.S. 
strategic objectives.
    Moreover, even when the use of direct conventional military 
confrontation is feasible, the U.S. Government may seek the use 
of indirect approaches instead. The offensive use of irregular 
warfare will likely become an increasingly attractive strategic 
option and preferred form of warfare for the United States to 
meet its challenges and achieve its objectives.
    Our Armed Forces will therefore require sufficient 
capability and capacity to wage protracted irregular warfare on 
a regional and global scale and for an indefinite period. The 
U.S. has a long history of waging irregular warfare. But our 
experience has been on limited engagements for limited periods 
of time, normally in association with conventional military 
operations.
    What differentiates irregular warfare from more 
conventional warfare is its emphasis on the use of irregular 
forces generally and the other indirect nonconventional methods 
and means to subvert, attrite and exhaust an adversary or 
render him irrelevant to the host population rather than on 
defeating him through direct means on the battlefield.
    Unlike conventional warfare, irregular warfare is an armed 
political struggle for control or influence over and the 
support of an indigenous population.
    The President's recently released National Strategy for 
Combating Terrorism provides the vision for defeating terrorism 
and winning this kind of war. The war on terrorism is both a 
battle of arms and a battle of ideas.
    This war will require us to meet and fight our terrorist 
enemies in the irregular warfare battle space while promoting 
freedom and human dignity as alternatives to the terrorist 
ideology of oppression and totalitarian rule.
    The strategy will require the application and integration 
of all elements of national power and influence. The military 
must be resourced to rebalance the force to permit victory in 
this type of war. Specifically, we must improve the capability 
of our general purpose forces to conduct counterinsurgency 
operations and to partner with and train foreign forces to 
defeat insurgencies and terrorist organizations.
    Our Special Operations Forces must also rebalance to devote 
a greater degree of effort to counterterrorism operations, 
defeating terrorist networks and combating the threat of 
weapons of mass destruction (WMD) proliferation.
    The National Military Strategic Plan for the War on 
Terrorism describes the approach the Department of Defense will 
take to fulfill its role within the larger national strategy 
for combating terrorism and provides the Secretary of Defense's 
strategic framework for the application of the military 
instrument of national power in the global war on terror.
    This plan established six military strategic objectives to 
permit development of the Defense Department's campaign plan 
for the global war on terror. The six objectives are and 
remain: denying terrorists the resources they need to operate 
and survive; enabling partner nations to counter terrorist 
threats; denying weapons of mass destruction technology to our 
enemies and increasing our capacity for consequence management; 
defeating terrorist organizations and networks; countering 
state and non-state support for terrorism in coordination with 
other U.S. Government agencies and partner nations; and 
countering ideological support for terrorism.
    As noted in the 2005 QDR, the Department of Defense must 
rebalance its forces to support the National Military Strategic 
Plan.
    The Department of Defense has established an aggressive 
time line for implementing the approximately 30 tasks over the 
next year in order to improve our ability to conduct irregular 
warfare, known as the Irregular Warfare Roadmap, as Admiral 
Olson mentioned. The focus of this roadmap is enhancing 
irregular warfare capabilities and capacities throughout the 
entire Department. A companion effort entitled, Building 
Partnership Capacity Roadmap, addresses interagency and 
multinational initiatives related to irregular warfare.
    Both of these roadmaps are complemented by the Department 
of Defense directive 3000.05 which directs the Department to 
improve its capabilities to conduct stability operations.
    The Irregular Warfare Execution Roadmap has begun to 
provide senior leadership with a mechanism to advance high-
priority issues for decision through the fiscal year 2008 to 
2013 Defense program.
    The roadmap will transform the department through the 
implementation of five major initiatives: one, changing the way 
we manage people necessary to support irregular warfare; two, 
rebalancing our general purpose forces to better support 
irregular warfare; three, increasing our Special Operations 
Forces capabilities and capacity to support irregular warfare; 
four, increasing our capacity to conduct counter network 
operations; and five, redesigning our joint and service 
education and training programs to conduct irregular warfare.
    The assistant Secretary of Defense for Special Operations 
and low intensity conflict is fully committed to supporting the 
Irregular Warfare Roadmap and identifying and addressing 
capability and capacity shortfalls related to irregular warfare 
in coordination with U.S. Special Operations Command (SOCOM) 
and the Joint Staff.
    In addition, we are identifying and requesting assistance 
to address legal authorities related to irregular warfare 
specifically section 2067 and section 1208 of Title 10 which 
provides the legal authority for U.S. military personnel to 
train and equip foreign forces supporting the war on terrorism.
    Throughout our history, U.S. Military Forces, Active Duty, 
Reserves and National Guard, have adapted to engage new threats 
to our Nation.
    The 2005 QDR identified the capability and capacity 
shortfalls that must be addressed to meet the full range of 
challenges to the United States, irregular, conventional, 
disruptive and catastrophic.
    The Irregular Warfare Roadmap in particular represents a 
concerted effort to transform how we manage and train our 
forces and to rebalance our general purpose forces and Special 
Operations Forces to meet the irregular warfare challenge.
    Chairman Saxton, Congressman Smith, distinguished members, 
thank you again for your interest in and support of our 
irregular warfare initiatives. I am honored to appear before 
you today, before this distinguished committee, and at the 
appropriate time, I would be happy and delighted to answer your 
questions. Thank you.
    [The prepared statement of Secretary Mancuso can be found 
in the Appendix on page 28.]
    Mr. Saxton. Mr. Secretary thank you, very much.
    General, the floor is yours sir.

   STATEMENT OF BRIG. GEN. OTIS G. MANNON, DEPUTY DIRECTOR, 
      SPECIAL OPERATIONS, J-3, JOINT STAFF, U.S. AIR FORCE

    General Mannon. Good afternoon, and thank you, Chairman 
Saxton. Chairman Saxton, Congressman Smith, distinguished 
Committee members. Thank you for inviting us here today to 
present you with additional information concerning the 
Irregular Warfare Roadmap.
    For most of the 20th century, we knew who our enemies were 
and where they lived. They had armies, navies and air forces to 
attack with recognized capitals and populations to put at risk. 
However, in the 21st century, as we have already alluded to, we 
face a different enemy, an enemy defined by a complex network 
of ideologically driven extremists who will attempt to engage 
us not only far away from our shores but at home as well.
    Future efforts in the long war on terror include many 
operations characterized by irregular warfare, operations in 
which the enemy is not a regular military force of a nation-
state. As we are all aware, we are engaged in a global 
conflict, and our efforts confronting the enemy must also be 
global in nature. These operations will occur on multiple 
fronts and cannot be limited to primarily military activities.
    The Department of Defense's 2006 QDR describes the 
Department's efforts to shift emphasis from a focus on major 
conventional combat operations to multiple irregular 
operations.
    Secretary Rumsfeld emphasized the QDR was not in itself an 
end state; particular emphasis will continue in several 
critical areas through the development of following roadmaps.
    The purpose of the Irregular Warfare Roadmap is to 
facilitate implementation of 2006 QDR decisions regarding DOD 
capabilities and capacity to conduct and support protracted 
irregular warfare.
    The Irregular Warfare Execution Roadmap converts the broad 
policy objectives established during the QDR into actionable 
tasks. It also provides the Department's senior leadership with 
a mechanism to advance high-priority irregular warfare issues 
for program decisions through the fiscal year 2008-2013 Future 
Years Defense Program as well as establishing an oversight and 
management process for implementing irregular warfare 
initiatives.
    The execution roadmap addresses the need to develop an 
increased capabilities and capacities throughout the Department 
by grouping lists in five broad subject areas of reliance of 
operation. Mr. Mancuso referred to those five areas, so I will 
not repeat those at this point.
    Today, we must cope not only with the threats produced by 
the proliferation of weapons of mass destruction and missile 
technology among nation-states but also with threats posed by 
individual terrorists and terrorist networks with global reach.
    The 2006 Quadrennial Defense Review was a crucial step 
forward in addressing the challenges posed by these new 
threats. By providing a method for continuous assessment and 
refinement, the Irregular Warfare Execution Roadmap serves as a 
primary means for implementing those forward-thinking 
decisions.
    Chairman Saxton, committee members, thank you for your 
interest in and support of the Department's Irregular Warfare 
Roadmap. We stand here ready to answer your questions.
    Thank you.
    [The prepared statement of General Mannon can be found in 
the Appendix on page 42.]
    Mr. Saxton. Thank you, General.
    Let me just take care of a little housekeeping item here. 
After consultation with the minority, I now ask unanimous 
consent that Mr. Taylor, a member of the House Armed Services 
Committee, be allowed to participate in today's subcommittee 
hearing and be authorized to question witnesses. Mr. Taylor 
will be recognized at the conclusion of the questions by 
members of the subcommittee. Thank you.
    Mr. Smith, would you like to lead off?
    Mr. Smith. Certainly. Thank you. I appreciate the 
information. I am most interested in getting down to some of 
the specifics in terms of how all of this is working in the 
various places we are trying to deploy, obviously more in Iraq 
and Afghanistan, our two most prominent places. And we are 
struggling in both in varying degrees in terms of reducing 
violence and getting a stable government in place and, frankly, 
winning support of the people broadly in both of those 
countries for support of those governments. You can disagree 
with that assessment if you like.
    But if you don't, how are we doing? How can we do better? 
How can we get to the point where we start to see success in 
Iraq, and I guess the other important question overarching all 
of this is, what is the metric of success? Because that is 
something that, as a policy maker, I am wrestling with now, is 
we have 140,000 U.S. troops in Iraq.
    How are they making the situation better? There hasn't been 
a lot of evidence of that, frankly, in the last, well, 
certainly year, maybe longer. And if not, you know, that 
certainly shows some weaknesses in what we can do.
    Is there a way to change it to start having more success? 
To boil that all down, what is the measure of success focusing 
on Iraq and Afghanistan? Why haven't we done better, you know, 
hitting those metrics? And what is the plan to get there, to 
get to the point? And overarching all of that is my assumption 
that success is, you know, having a stable government that you 
know is at least not directly hostile to us.
    If you can take a stab at that and how unconventional 
warfare is playing out and how we can do better at it, that 
would be very helpful.
    Secretary Mancuso. Sir, thank you for the question.
    To begin with, what I would like to say is the Irregular 
Warfare Roadmap is more broadly about how we can get better and 
how we can institutionalize some of the best practices. So as 
we think about the roadmap, it is not tied to--it is certainly 
not tied to Iraq and Afghanistan directly, nor is it tied to 
any particular operation. It is tied really to the future and 
our ambitions for it.
    Mr. Smith. Certainly, and I understand that. But that is 
indicative. And I don't wish to limit it just to that; I think 
it does have those broad applications that you mentioned, but 
getting into the specific helps us understand better how it is 
going to apply elsewhere.
    Secretary Mancuso. Yes, sir. But in one sense, it is tied 
in a very important way, and that is the best practices that we 
have developed; the insights that our troops on the ground have 
developed in fighting a protracted irregular warfare in places 
like Iraq and Afghanistan have been folded up into our process 
as we think about it.
    So in that sense, Iraq and Afghanistan, not only are they 
important missions in and of themselves, but they are important 
classrooms. And I don't mean to diminish those missions by 
describing them as such for the future as the Department builds 
up its capability and capacity to do that.
    But to get to your metric of success, clearly a free, 
democratic and secure Iraq is important. We believe we are 
making very, very good progress. Clearly, it is a difficult 
mission. But in terms of the broader metrics and how we succeed 
in the global war on terror----
    Mr. Smith. Focus on the progress piece of that; where we 
are making very, very good progress, that would be a good place 
to go for metrics. What is the metrics of your assessment of 
that progress? Where is it that this is getting better; that is 
getting better? What is the progress you discussed 
specifically?
    Secretary Mancuso. Sir, I am not sure I am the best person 
equipped to talk about Iraq generally. I have a fairly narrow--
an important but narrow portfolio on our counterterrorism 
Special Operations. So I would be happy to go into that. I 
could take that question for the record and get back to you.
    Mr. Smith. That would be helpful. Yes, that would be 
helpful if you can do that.
    Secretary Mancuso. Yes, I would certainly do that. Thank 
you.
    [The information referred to can be found in the Appendix 
beginning on page 53.]
    Mr. Smith. I thought you were going to go into some of 
those metrics for success.
    Secretary Mancuso. I can do that.
    Our strategic end state is essentially impacting our 
enemy's ability to act globally and catastrophically--the 
enemy, as I use it, is al Qaeda and the affiliated movement--
and to ensure that its ability to act locally in venues is 
outweighed by the capacity and willingness of our partners to 
defeat them.
    That sounds grand, and it sounds nebulous, but we are well 
on the way of breaking up a global threat, emulsifying it, if 
you will, and then focusing in on our partners and allies in 
equipping them and ensuring that they are equipped to defeat 
the local threat, to keep it contained. That is the strategic 
end state. Are we there yet? No, we are not.
    But we are making progress as we are engaged throughout the 
world and throughout the entire global war on terror.
    Mr. Smith. Admiral, General, if either one of you had 
anything to add to that?
    Admiral Olson. Sir, I think you have honed in very quickly 
on the somewhat nebulous nature of irregular warfare. The 
desired end state is an environment that is inhospitable to 
terrorism and terrorist activity.
    And there are different approaches to getting there that 
will have different measures of success. Clearly, in terms of 
the direct approach, that being disrupting terrorist activity 
and preventing the acquisition and use of weapons of mass 
destruction, I think the metrics of effectiveness of a 
terrorist network clearly would show success.
    We are aware of the removal, either by death or capture, of 
several of the leaders of al Qaeda in Iraq. We are aware that 
their infrastructure has been disrupted to the point that it is 
less effective over time.
    But the longer-term actions that will ultimately be 
decisive in a terrorist campaign, those being partner issues, 
nation capacity, an atmosphere, an environment that does not 
provide tacit or active support to terrorist activity, the 
metrics for those are a little bit, are quite a bit different. 
And in some ways, the direct action activities do not support 
and in some cases may even work against the metrics of the 
indirect approach.
    Mr. Smith. Absolutely. Let me take one final stab.
    I appreciate your forbearance, Mr. Chairman.
    Sort of getting the population on your side is one of the 
key parts of irregular warfare. You know then they are 
cooperating with you when it is no longer popular to be an 
insurgent. You sort of--hearts and minds, not to be cliche. But 
that is what we are talking about. And that is where, when I 
look at what has happened in Iraq and to a lesser extent in 
Afghanistan, I wouldn't be happy with the outcome if I was 
you--and I am not happy with the outcome being me--it seems 
like we haven't done a lot of, you know, we haven't had a lot 
of success in terms of getting the population to believe that 
we are the good guys and the guys we are fighting are the bad 
guys. And that is where you get into the irregular aspect of 
it. That is where you get beyond, okay, there is a bunch of 
terrorists, we have to go blow them up; to, how do we work with 
the population to get them to see that we are working in a more 
positive direction? We haven't been terribly successful at 
that. I am going to try one more time to try to drag you into 
the specific here because I would think that, given what you do 
learning specific lessons from Iraq and Afghanistan, would be 
right at the top of the list in understanding how to do better 
both there and elsewhere. So in terms of getting the population 
to see us as the better, we have not done that very well. What 
have we learned in terms of how we can do that better, either 
there or elsewhere?
    Admiral Olson. I will take that first, sir. I couldn't tell 
who you were addressing that to.
    Mr. Smith. Any one of the three of you that thinks he has a 
good and answer is fine, so.
    Admiral Olson. I think the attitude of the people, 
particularly in Iraq but not only in Iraq, depends to a large 
degree on the stability of the environment in which they live.
    The stability of the environment in which they live is 
largely determined by the development, the effectiveness of an 
Iraqi government, self rule, and the training and effectiveness 
of Iraqi police and military units so that they can ensure 
stability and safety in the populace.
    Those are longer-term efforts than capturing and killing 
terrorists. And as those efforts are underway with, in a robust 
way with great vigor, we are still in a situation where we need 
to capture and kill a certain number of violent extremist 
organization leaders.
    And I think it is undeniable that the activities in the 
direct action approach may work against some of the activities 
in the indirect approach and then, therefore, create an 
environment that, again, where the metrics of the direct 
approach are more easily measurable than the metrics in the 
indirect approach.
    Clearly, we understand that--the lessons learned are that 
stability contributes to success. So the efforts are to create 
a stable environment, and that is occurring in many ways.
    There are partner nation-building activities across Iraq 
and Afghanistan that will ultimately be decisive in the global 
war on terror.
    Secretary Mancuso. Congressman Smith, I would like to add 
something. You described Iraq. In many--first, what I would 
like to say is, I am not sure I agree with your assessment of 
how the local population feels toward U.S. forces. That is not 
to say that the situation is not complex. But I think it is 
highly variable depending clearly upon who you talk to and what 
part of the country you are in. But in that respect, that 
entire debate is off stage left because in terms of an 
irregular warfare paradigm, what is most important is not what 
the Iraqis think of us but what they think of their own 
government, a sovereign government of Iraq that is in the 
process of standing up--that has stood up but is in the process 
of maturing versus those who would destroy that government. And 
I think in this complex battle, it is clear that the Iraqi 
people have a greater faith in their government. But to 
underscore something that Admiral Olson said, stability is key. 
And that is the variable that will be decisive over the longer 
term.
    And it is our contention that as the government matures, as 
it is better able to provide security, that that internal 
dynamic between the insurgency and the government to state it 
very, very succinctly, that dynamic will improve in favor of a 
free, democratic and secure Iraq.
    In terms of what we have learned from the dynamic, we 
really learned that the world is a complex place; that 
irregular warfare clearly favors indirect approaches, which is 
precisely why, wherever possible, we work with the host nation. 
We work with partner countries because it is their country. 
They know it better, and it just works better.
    Mr. Saxton. We are going to go to Mr. Hayes in just a 
minute, but on the way there, one aspect of indirect warfare is 
training people to be our partners. And I wonder if whoever 
wants to take this question could just comment on our progress 
in carrying out the mission of getting, particularly in Iraq 
but perhaps also in Afghanistan, the indigenous people trained 
up. We hear numbers. Sometimes we hear some assessments.
    What is your assessment of how we are doing with regard to 
the Iraqi military and the Iraqi police force?
    Secretary Mancuso. Sir, I don't have the most recent 
numbers. The last time I checked, the general trend was 
positive. It was not going as quickly as we would like, but we 
were generally on schedule. I can get back with the specific 
response, and we will get numbers to you. And we can take that 
for the record.
    Admiral Olson. I don't have specific numbers either, but I 
think we can generally feel pretty good about the training 
activity that is taking place and its effectiveness. I will say 
that it may not be going as quickly as we would have hoped, but 
I don't think we knew how quickly we should expect it to go.
    But we are nonstop working very closely with selected Iraqi 
forces and of course, the forces of the Army and the Marine 
Corps mostly, but all services are also working with Iraq and 
Afghanistan on a much larger scale than we are. It is just a 
different segment of the force.
    And I think, anecdotally but also measurably, we have 
shifted in many areas, many locations, those forces with which 
we have worked the longest; we have shifted from leading them 
on the target to following them on the target. We have shifted 
from planning their operations to watching them plan their own 
operations. And so the members of Special Operations--which I 
can address specifically--who are out there doing that, they 
are proud of what they are doing, and they feel--they believe 
that they have good reason to think that the Iraqis in 
particular and the Afghanis are showing great success over 
time.
    General Mannon. Sir, one other lesson that we have learned 
that may be a valid point here is the fact that the ability of 
the United States Military to train and equip indigenous 
forces, that we need the help of the interagency community, and 
we outstrip their ability to support us. So that is one of the 
lessons that we found and that the Irregular Warfare Roadmap 
intends to at least improve on so that we can move forward 
faster.
    Mr. Saxton. Thank you.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    Admiral, following up on Mr. Smith's question, which was 
certainly a good one, could you describe for us the conditions 
in Fallujah today and Fallujah a year or 18 months ago? I think 
there is dramatic progress that has occurred there. I can't 
describe it too accurately, but if you are familiar, status now 
versus status back then, Admiral Olson.
    Admiral Olson. Sir, I would rather take that for the 
record. I haven't been to Fallujah lately. I would be reporting 
second- or third-hand information, and therefore, in the in the 
interests of being accurate, I would like to confirm that with 
people who I think would give a better report.
    Mr. Hayes. Fair enough. I don't want to put you on the 
spot, but I know there are dramatic changes from--significant 
stability has occurred there or is what is happening there 
versus the extreme instability not that long ago. It is 
difficult--people at home, people in Washington, they want a 
yard stick. They want to be able to measure where are we on the 
yard stick. It is so hard to do. Again, going forward, people, 
even though we here get to see and hear things that are 
extremely reassuring, anything you all can do to help us get 
the message out clearly and accurately that progress being 
made, and it is difficult. You have the challenge of--we don't 
do body counts. I think that is wise, but again, kind of a 
hypothetical but actual situation when we were in control of 
the southern part of Afghanistan; I was over there recently; 
been there a number of times. U.S. Forces view the enemy and 
General Boykin refers to the enemy as a worldwide insurgency. 
It is not just a localized insurgency. What the insurgents have 
done against U.S. Forces because of their capabilities is to 
embed themselves anywhere they can and hide in the civilian 
population; Baghdad, places like that.
    Is there a significance to the fact, again looking for a 
sign of progress, that once the U.S. Forces turned over that 
part of Afghanistan to North Atlantic Treaty Organization 
(NATO), all of a sudden the tactics at least temporary changed 
where significant forces came out in the open and chose to 
engage our coalition partners, NATO, as opposed to really 
sticking with the insurgency as long as we were there. That 
seems to me to be again a sign of where we are and where we are 
going. They have done that. They have been countered 
successfully.
    Is it positive? Is it constructive? To comment on that, 
General Mannon or Admiral Olson.
    General Mannon. Sir, in a general statement, I would say 
that with regard to your question concerning Afghanistan and 
the transition, the enemy has reacted like all enemies during 
that transition period and attempted to exploit a perceived 
seam. As a result of that, we have had reasonable success in 
the--again, not getting to a body count--but in pursuing the 
enemy, by supporting our coalition forces through air power, 
and we have been able to turn that back around, and we have 
also seen some indications at this level that they may be 
changing the way in which they want to approach the fight in 
Afghanistan.
    Mr. Hayes. Admiral Olson, comment, again this is from 
having been there with Ray, talking to General Richardson of 
NATO, who is anxious to get in the fight; it is good news, want 
us to maintain the assets, air, to support them, and they have 
done a very good job. Seems like the enemy changed their 
tactics. Now they are going back because of the success being 
had there, and not to say it is not a tough fight.
    Admiral Olson. Sir, the circle of operation against the 
terrorist threat is to isolate the threat, defeat the threat 
and then prevent the reemergence of that threat. I think we 
have been successful in many places in isolating the threat and 
defeating the threat where we have isolated it. Preventing the 
reemergence of it is a continuous effort. And we will see flare 
ups in different regions where we see a reemergence of the 
threat which we need to isolate and then defeat it again.
    We see that in Anbar province in Iraq. We see it a little 
bit in Oruzgan province in Afghanistan. And it is so thus far 
that is why I was uncomfortable upfront speaking with 
confidence because I don't know exactly where we are in this 
reemergence of the threat. When we--when we defeat the threat, 
we often don't know that we have defeated it forever.
    So it requires continuous pressure in some of these areas.
    Obviously, we have reason to feel good about success in 
Fallujah today. It is a much more stable environment than it 
was a year ago, as you alluded.
    What I don't know well enough is what the potential for 
reemergence for a threat is in Fallujah and how much we are 
going to be able to shift our focus into other regions, sir.
    Mr. Hayes. I think I see a red light, Mr. Chairman. Thank 
you. I will----
    Mr. Saxton. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    And Mr. Mancuso, are we going to expect to see in the 2008 
budget proposal some language from you all regarding section 
1206 and 1208 of title 10?
    Secretary Mancuso. We expect that language, yes. The answer 
is, yes.
    Mr. Larsen. For something more long-term as opposed to, we 
usually end up getting filed in appropriations as opposed to 
over here in authorization.
    Secretary Mancuso. We can get back to you.
    Mr. Larsen. But we should expect to see language, some 
language?
    Secretary Mancuso. 1206 and 1208, that is correct, sir.
    Mr. Larsen. Are we also going to see in the 2008 budget 
proposal some specific initiatives to reflect the five 
principles that are laid out in your testimony, and, Major--I 
am sorry, General Mannon's testimony?
    Secretary Mancuso. Sir, there are specific initiatives, but 
they are internal. Once again, these execution roadmaps are 
guidance internal to the Department except with regard to 
building partnership capacity, which partly relates to the 
Department but more importantly relates outward in the 
interagency and multinationally.
    But those initiatives will be internal to us.
    But the end state will be to improve the capability and the 
capacity for us and the interagency----
    Mr. Larsen. We will look at the 2008 budget proposal which 
is the first year the 2008 to 2013 fit up the year that you 
talked about, how are we going to be able to assess next 
February when we do the budget whether or not the budget 
proposal is reflecting this, reflecting the roadmap?
    Secretary Mancuso. Excuse me.
    Mr. Larsen. Stop the clock, Mr. Chairman.
    Secretary Mancuso. I have just been told by my subject 
matter expert here--excuse me--what will be reflected is a 
request for authority which is what I referenced but not a 
request for additional funding. To the extent that IW issues 
will be addressed, they will be addressed internally inside the 
Department and will not otherwise be reflected in the budget 
document.
    Mr. Larsen. I understand that, and I guess I will make a 
point, Mr. Chairman, that if we are going to continue to show 
some interest in this as a committee, we probably want to show 
some interest in the internal discussions of the Department to 
be sure that stays on track as well and reflective of the kinds 
of interest we have here on committee.
    The--seems to me, moving forward, on Irregular Warfare 
Roadmap, your definitions have to be pretty firm. And General 
Mannon, on page 3 of your testimony, on the bottom you say, 
increasingly sophisticated irregular methods, such as terrorism 
and insurgency, challenge U.S. security interests.
    And I guess for you, General, and for you, Admiral, how are 
you going to pick which--I had a couple of questions. How do we 
pick which terrorists to engage? How do we pick which 
insurgencies to care about? And are you going to aggressively 
fight within the DOD bureaucracy to ensure that we have an 
accurate definition of what a terrorist is and what an 
insurgency is, because not all terrorists are insurgents and 
not all insurgents are terrorists? And it seems to me the 
definition of what these folks are will have a very important 
impact on what you do and where we send you.
    General, you are first. I will decide for you.
    General Mannon. Thank you. Sir, we have, for approximately 
4 months now since the roadmap was signed and released with the 
proposed definition, we have worked between SOCOM, the 
Interagency and Office of the Secretary of Defense to address 
where to put our efforts, our priority of efforts based on 
intelligence assessments as well as operational assessments of 
how to tie all the proper pieces together, the various 
interagency pieces, to go forward and to take our limited 
assets and put them where they need to be placed.
    So we are not completely there yet, but we have made some 
reasonable progress in my estimation with regard to a listing 
of or a priority of effort in various areas of the world as 
well as various organizations.
    Mr. Larsen. Admiral, do you have any comments with regard 
to how we define, how we put a definition on these two terms? 
Or are there other terms we may use when we make decisions 
about where we send our folks?
    Admiral Olson. Sir, the terms are being defined. Some of 
them are doctrinally defined already. Terms like irregular 
warfare, we have a working definition; I assume that that or 
something very close to it will become the doctrinal definition 
before long.
    In the meantime, we have a fairly sophisticated process for 
rank ordering, you know, the priority of efforts for the 
Department of Defense with respect to the global war on terror. 
Under the global war on terror campaign plan, there is a 
complex matrix by which countries, regions are identified for 
resourcing efforts, some of them because they are nations with 
adversaries, some because they are partner nations with which 
we want to develop a stronger relationship and build more 
capacity.
    This list is recommended by Special Operations Command 
through the Joint Staffs of the Department of Defense for 
approval. And once that list is approved, then it becomes a 
factor in prioritizing the resourcing effort.
    I feel pretty good about the level of sophistication of the 
list. I feel pretty good about the fidelity of the list. I feel 
pretty good about how much in concert that list seems to be 
within DOD and across the interagency environment. And it is a 
driver for application of resources in 2008 and beyond.
    Mr. Larsen. Mr. Chairman, if I could make two points and 
conclude time. Thank you.
    The first point I want to make is with regards to Iraq. It 
seems the terms terrorist and insurgents get interchanged quite 
a bit. And the insurgency is something that is very much 
homegrown. The terrorism is something that is very much the 
foreign fighter. They may use the same tactics, but their goals 
end up being very different. And how we approach them may be 
the same, but they have very different goals in mind, and so 
what we end up doing with them in the end may have an impact on 
what happens in Iraq, good or bad. I am just trying to make a 
point that we have to be discerning in how we approach these. 
And I want to hear from you that we are being discerning.
    The second point I want to make about the government in 
Iraq is that, yes, there are folks who want to take that 
government down, including some of the people in the 
government. This whole fight over federalism in Iraq is in part 
a fight about whether or not to have a centralized government 
in Iraq or to have three governments in Iraq. And we are 
spending, our military is spending time in Iraq keeping the 
country from falling apart, and our State Department is 
spending all this time trying to keep that government together 
in one piece. And that is where we are spending so much time 
focusing on those things that we can't focus on getting the 
other things done in Iraq that we need to get done.
    General Mannon. Congressman Larsen, let me make explicit 
what I hope was implicit: We are discerning in terms of our 
strategies with respect to sort of the homegrown component of 
the insurgency versus al Qaeda-affiliated, for lack of a better 
term, terrorists.
    And that clearly is fully accounted for. We think about it 
all the time.
    Mr. Saxton. Thank you. I haven't asked my questions yet, 
but, Gene, if you want to go ahead; I am going to be a bit 
longer, so why don't you go ahead.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Chairman, I want to thank our witnesses.
    Couple of things I would like clarification from, 
particularly since one of the many things our special operators 
do is understand the hearts and minds of people who are on our 
side, the people who might be on our side and the people who 
aren't on our side.
    And I think it is kind of in the lessons learned category 
not only for this conflict but for future conflicts. Let's 
start with the palaces. I have had a special operator tell me 
early on that he just thought that the American occupation of 
the palaces was just incredibly counterproductive; that those 
palaces had come to be associated with evil because they were 
part of the Hussein network. And when you move into that 
palace, you get associated with that evil. And as you think 
about it, as we watched the polling shift of the Iraqis coming 
to think of us at first as liberators but then later on as 
occupiers, to what extent does the occupation by General Casey 
of the water palace and I guess the 4th Infantry Division (ID) 
from time to time has stayed at the palace up near the River, 
and other military units in the palaces, what does that do 
presently? Or is there something I am missing? Is it sending a 
message that we are in control here, and we are going to occupy 
any place we want? Or is there something subliminal there that 
I'm missing because I see it as counterproductive.
    Second part is Abu Ghraib. I remember when our Nation 
happily produced Zogby polls, professional pollster that showed 
that the Iraqis overwhelmingly were in favor of the American 
presence there.
    Somewhere around December of 2004, we quit getting those 
polls. And I remember asking when I was in Baghdad, and I 
believe the chairman was with me, January of 2005, hadn't seen 
those polls for a while, what is the number? And they were kind 
of sheepish around the table and finally someone said, 80 
percent. I said, damn, we are still running at 80 percent 
favorable, and he said, no, 80 percent unfavorable. The 
timeline, if I recall, the information about Abu Ghraib came 
out around Spring of 2004, so this would have been a good 12 
months after that or close to it.
    Again, am I missing something? Because I would think that 
what happened there was counterproductive, or is there 
something about the minds of the folks in that part of the 
world where it actually helped our case to do that. I am asking 
this in the form of a question because, to a certain extent, 
that is kind of the debate that is going on on the House floor 
today.
    I don't give a flip about terrorists. I don't give a flip 
about enemies of the United States, but I realize each of you 
people in uniform is a potential prisoner; that something could 
go wrong, and you could get captured. And I sure as heck 
wouldn't want any of you mistreated or held to a lower standard 
because of what is happening or what is perceived is happening. 
And so these are very sincere questions. Am I missing 
something? Do we gain any sort of advantage by being in the 
water palace? Did what happened at Abu Ghraib in any way help 
our case? And to what extent do the conventional forces, if the 
answer to the first thing is counterproductive, to what extent 
is the regular force listening? And to what extent do we see to 
it that that mistake is not made again?
    Secretary Mancuso. Sir, I will start with your last 
question first. We are all listening. We understand that--and I 
started my comments by saying the global war on terror is an 
irregular war in a fundamental sense. Well, the war in Iraq is 
irregular in the sense that it is about all instruments of 
national power, including for example, information.
    And so starting with the fact that we are all listening, I 
would like to say, of course, instances--well, real or 
perceived instances of abuse that were contrary to policy by 
individual soldiers, clearly that did not help us, and in fact, 
it hurt. But at the same time, the many instances of good work 
done by the large majority of our forces every day in multiple 
parts of the world including Iraq and all parts of Iraq, that 
also counts for something. I can't gauge the precise impact, 
what the tradeoff is, but there is no doubt in my mind that 
those specific instances hurt us but also that the incredible 
good that our forces are doing and doing every day in Iraq help 
us, and thank goodness for them.
    With respect to your question about occupying the palaces, 
I would be in no position to assess. I think that is certainly 
an important point to consider.
    Mr. Taylor. If I may, sir, in fairness, and again, I walked 
in kind of late, but I take it that you are a political 
appointee who is responsible for that segment of the United 
States Military.
    Secretary Mancuso. I am a political appointee responsible 
for the Special Operations and combating terrorism.
    Mr. Taylor. There may be instances where the only U.S. 
troops who are sent somewhere will be special operators, future 
conflict. So if a future conflict comes along and a likely 
place to billet special operators is the palace, what do you 
tell those guys? Because I think we have made a blunder. I 
didn't think of this, but the guy who brought it to my 
attention made a pretty convincing argument that moving into 
those palaces was a blunder. I have come to agree with that. So 
are we learning anything?
    If the only people dispatched to an area are special 
operators, therefore, they would be under your direction, what 
would you tell them?
    Secretary Mancuso. Well, what I would say is this: First of 
all, I recognize that there might be severe policy and 
strategic impacts to operational decisions. Clearly, there is 
no question but that that is true. And with respect to your 
example of palaces, in general, do I think that is likely a bad 
idea? Probably. But there are operational tradeoffs that a 
bureaucrat essentially sitting in Washington is frankly not 
empowered to make in the sense that I don't have entire 
situational awareness.
    Now while I would say, in general, that is a bad idea to 
sit in a palace, if there is a commander on the ground that has 
a full battle picture and has to make a tradeoff between bad 
optics versus bad security, that is a decision that I think we 
owe to our troops on the ground.
    I was prior service; I am actually a combat veteran of Iraq 
myself. We had a dictum when I was a soldier: Mission first, 
people always. And as a bureaucrat sitting in Washington, while 
I can generally agree with the optics piece, I would not feel 
comfortable telling that on-the-ground commander to make that 
tradeoff from Washington.
    Mr. Saxton. Gene, we are going to have votes between 
quarter of and 4.
    Admiral Olson. Can I quickly address that question? I can 
address it solely as Special Operations Command, and it is all 
right for special operators not to occupy palaces but to live, 
eat, breath, work with the local populations in which they 
serve. And as I have traveled around the theater, I have 
visited Special Operations Forces in a number of remote 
outposts where they are the only Americans for miles around and 
where they are sharing their compounds with their Iraqi or 
Afghan counterparts. Many of these are in high-risk locations, 
and as they are defending against mortar attacks each night, 
they are out each day building bridges across rivers and 
building schools and broadcasting on radio stations that they 
man themselves and running patrols to ensure the security of 
their compound along the way.
    I visited one palace occupied by Special Operations 
soldiers. It was in a corner of Baghdad and a corner of the 
Baghdad international airport. It is a palace that was occupied 
because it was the highest terrain around, and in an unstable 
environment, it was the best place from which to defend 
oneself, and a couple miles down the road from that compound, 
most of the forces assigned to that mission are living and 
working with their Iraqi counterparts, the Iraqi special 
operations forces and operating with them each night, coming 
back and eating with them in their chow halls.
    I don't think we in Special Operations would consider 
occupying a compound to be a wise move. It may be the 
operationally sound move for a period of time. It may be the 
expedient move for security, but the goal will always be to 
move out of the palaces and be out with the people. That is how 
Special Operations typically works, sir.
    Mr. Saxton. Thank you, Admiral.
    Mr. Secretary, I believe--and I believe that perhaps you 
believe as well--that irregular warfare will be the dominant or 
at least one of the dominant forms of conflict for the 
foreseeable future. Assuming that we are successful in dealing 
with al Qaeda, what do you see our Nation facing in terms of 
continued irregular warfare threats?
    Secretary Mancuso. Mr. Chairman, when we talk about 
irregular warfare, we often think in terms of terrorist 
networks and that is clearly the most urgent, pressing 
manifestation of the problem. But irregular warfare is not 
limited to non-state adversaries in terms of using it. States, 
hostile states in some instances, hostile states armed with 
nuclear weapons or WMDs, rather, more generally could use 
irregular warfare against us, and so the United States not only 
has, in my view, not only has to be in a position to defend 
against irregular warfare used by non-state actors; we also 
have to be in a position to defend against irregular warfare 
used by states and be able to counter and use irregular warfare 
consistent with international law and U.S. law against both 
non-state actors and state actors as well.
    Mr. Saxton. I assume that you are thinking of Iran and 
Hezbollah.
    Secretary Mancuso. Sir, I wasn't actually thinking of any 
particular country but countries that are hostile to the United 
States, particularly countries that might have weapons of mass 
destruction or intentions of having weapons of mass 
destruction, IW may give us more strategic choices and flex in 
terms of how we might deal with them.
    Mr. Saxton. Mr. Secretary, you described the need for an 
all-out government effort, not just a military approach. How 
are we coordinating a truly national effort in conducting 
irregular warfare in order to comply with all forms of national 
power at this time?
    Secretary Mancuso. Very aggressively. We are--first of all, 
the Department of Defense recognizes--and I said this on my 
testimony, sir, and I will reiterate it because it is such an 
important point--that, in most instances, the lion's share of 
the burden in terms of irregular warfare is not uniquely 
military; it is other. It is information, diplomacy. It is the 
other elements of national power. And what we at the Department 
of Defense recognize is that it is incumbent upon us to work 
with our interagency partners and with our partners and allies 
throughout the world to develop their capacity along with their 
instruments of national power to get the job done.
    This is manifested concretely in things like the National 
Intelligence Priorities Framework (NIPF). It is manifested 
concretely in interagency working groups. We haven't mastered 
the puzzle yet. We don't have the answer. We have recognized 
the problem, and we are moving with all deliberate speed to 
implement the right solution.
    But our institutional plumbing, Mr. Chairman, as you know 
very well, wasn't geared to addressing these kinds of threats, 
and so right now we are in the process of having--sort of 
changing our plumbing, if you will, being able to face all of 
the threats and being able to hedge against uncertainty in a 
national security environment across--interagency and with our 
partners and allies.
    Mr. Saxton. You mentioned in that answer building partner 
capacity a couple of times. Can you describe the linkage 
between the Irregular Warfare Roadmap and Building Partner 
Capacity Roadmap?
    Secretary Mancuso. We think about it inside the Department 
of Defense, sir, as sort of opposite sides of the same coin but 
I would like to define what I mean by building partnership 
capacity and what we more generally understand.
    When we talk in terms of building partnership capacity, it 
at the most basic level means developing the capacity of our 
partners to do discrete tasks, but there is also a second and 
perhaps more important sense that we talk about building 
partnership capacity; that is in terms of not just building the 
capacity of our partners to do things but to build the capacity 
of the partnership, relationships with our partners and allies 
throughout the world. And that is what we are focused on.
    So, in the Department of Defense, when we work with our 
partners and allies, of course, we are focused on transferring 
skill sets because we want to empower them to do things that we 
would otherwise be called to do and out of the fact that we are 
mindful that terrorism is a collective threat and they 
themselves in their societies are under siege as well.
    But we also remember as we migrate these skill sets, we are 
also mindful of the fact that, as we do that, we are building 
relationships which institutionally over time will make us much 
more effective in the global war on terror, and we have 
certainly seen tremendous progress on that front as well.
    In terms of numbers, in terms of when we ask about discrete 
things, what are we doing in different countries? That is an 
important part of the question, but the other part is, how are 
we getting along, if you will? How are we developing more 
organic relationships? And we are working on that, too, and 
that is critically important.
    Mr. Saxton. Let me ask you this, let me put it this way, we 
have relationships with Saudi Arabia. We have relationships 
with Bahrain, Qatar, United Arab Emerate (UAE), Egypt. Let me 
ask you this, did the statement made by the Iranian president 
recently that--or was it the Hezbollah leader--that they are 
next going to concentrate on posing threats to Israel and the 
Gulf states, and does that create an opportunity for us to 
change or to enhance our partnerships with some countries?
    Secretary Mancuso. Well, we certainly think that, as the 
rest of the world, particularly in the Middle East, recognizes 
that this threat is not unique to the United States, that it is 
in fact a threat shared across cultures, across geographies, 
that any opportunity, particularly a statement to that effect--
I am not quite sure which statement specifically you are 
referring to--that might underscore the fact that the threat is 
collective, that creates opportunities for us; opportunities to 
work together with other countries in the region and 
opportunities to ensure that we build a kind of better 
ecosystem, better partnership to combat terrorism.
    Mr. Saxton. I believe the statement I was referring may 
have been Nazrallah, and he said, we are next going to attack 
Israel and the Gulf states. When I saw that headline, I 
thought, what an opportunity to create and enhance 
relationships with Gulf states in particular.
    Secretary Mancuso. Mr. Chairman, I would not want to get 
into sort of classified information, but what I would suggest 
is a statement to that effect is likely not an effective growth 
strategy for Hezbollah.
    Mr. Saxton. Admiral, you offered a definition of irregular 
warfare as a form of warfare that focuses on undermining or 
subverting the credibility, legitimacy of a political authority 
in question. How would you define the political authority that 
we are combating in the global war on terror?
    Admiral Olson. Sir, the working definition of irregular 
warfare was a definition arrived at by a committee approved by 
the Deputy Secretary of Defense. I think that irregular warfare 
best describes the actions that we are countering, but we have 
applied it to use those counteractions themselves and lumped it 
all under the term irregular warfare, which can both be 
offensive and defensive under the new definition. I think the 
irregular warfare that is taking place in Iraq is clearly 
trying to counter the emergence of a legitimate government in 
Iraq; same thing in Afghanistan. Our efforts to counter those 
irregular warfare activities against those governments are also 
irregular warfare activities.
    Mr. Saxton. Were you going to say something?
    I have no more questions.
    At this point I want to thank you for being here. We are 
going to have a series of votes here very soon. I want to just 
say that the definition of progress for all of us is different, 
and we believe that the changes that--I believe, I don't speak 
for others, that the changes that SOCOM has made and the 
understandings it has developed in how to fight an irregular 
war are very significant pieces of progress and I want to thank 
you for, each of you, for your leadership and what you do. You 
are performing a great service to our country in a very 
difficult time and thank you for being here today. Thank you.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 27, 2006

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 27, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3585.001
    
    [GRAPHIC] [TIFF OMITTED] T3585.002
    
    [GRAPHIC] [TIFF OMITTED] T3585.003
    
    [GRAPHIC] [TIFF OMITTED] T3585.004
    
    [GRAPHIC] [TIFF OMITTED] T3585.005
    
    [GRAPHIC] [TIFF OMITTED] T3585.006
    
    [GRAPHIC] [TIFF OMITTED] T3585.007
    
    [GRAPHIC] [TIFF OMITTED] T3585.008
    
    [GRAPHIC] [TIFF OMITTED] T3585.009
    
    [GRAPHIC] [TIFF OMITTED] T3585.010
    
    [GRAPHIC] [TIFF OMITTED] T3585.011
    
    [GRAPHIC] [TIFF OMITTED] T3585.012
    
    [GRAPHIC] [TIFF OMITTED] T3585.013
    
    [GRAPHIC] [TIFF OMITTED] T3585.014
    
    [GRAPHIC] [TIFF OMITTED] T3585.015
    
    [GRAPHIC] [TIFF OMITTED] T3585.016
    
    [GRAPHIC] [TIFF OMITTED] T3585.017
    
    [GRAPHIC] [TIFF OMITTED] T3585.018
    
    [GRAPHIC] [TIFF OMITTED] T3585.019
    
    [GRAPHIC] [TIFF OMITTED] T3585.020
    
    [GRAPHIC] [TIFF OMITTED] T3585.021
    
    [GRAPHIC] [TIFF OMITTED] T3585.022
    
    [GRAPHIC] [TIFF OMITTED] T3585.023
    
?

      
=======================================================================


                   QUESTIONS SUBMITTED FOR THE RECORD

                           September 27, 2006

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. Focus on the progress piece of that; where we are making 
very, very good progress, that would be a good place to go for metrics. 
What is the metrics of your assessment of that progress? Where is it 
that this is getting better? What is the progress you discussed 
specifically?
    Secretary Mancuso. The Department of Defense (DOD) has developed an 
assessment process to measure progress in the global war on terror 
(GWOT). The purpose of the assessment is to examine the efficacy of 
DOD's strategy for prosecuting the GWOT.
    The GWOT Assessment is a measurement tool comprised of discrete 
metrics, which are derived from the six military strategic objectives 
for the GWOT, outlined in the National Military Strategic Plan for the 
war on terror.

    The six military strategic objectives are:

    <bullet>   Deny terrorist the resources they need to operate and 
survive

    <bullet>   Enable partner nations to counter terrorism

    <bullet>   Deny WMD/E proliferation, recover and eliminate 
uncontrolled materials, and maintain capacity for consequence 
management

    <bullet>   Defeat terrorists and their organizations

    <bullet>   Counter state and non-state support for terrorism in 
coordination with other US government agencies and partner nations

    <bullet>   Contribute to the establishment of conditions that 
counter ideological support for terrorism

    The DOD develops GWOT action plans to address shortfalls derived 
from the assessments findings. Currently there are 25 GWOT Action 
Plans, which track the progress of policy, legislative and resourcing 
issues and identify factors that inhibit the successful prosecution of 
the GWOT.
    In addition to this testimony, DOD is in the process of preparing a 
formal GWOT Assessment for Congress. This assessment is due March 1, 
2007.
    In regard to Iraq, specific metrics are being developed, in line 
with the President's strategy, to measure the performance of the Iraqi 
military and government. The military commitments will make up the 
initial assessment of Iraqi performance and its ability to reduce the 
cycle of violence. Included in the security assessment will be Measures 
of Effectiveness (MOEs) focusing on political and economic progress.

                                  <all>

</pre></body></html>
